After we finish our investigation, one of two things will
happen:
• If we made a mistake: You will not have to pay the amount in
question or any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to
pay the amount in question, along with applicable interest
and fees. We will send you a statement of the amount you
owe and the date payment is due. We may then report you as
delinquent if you do not pay the amount we think you owe.
If you receive our explanation, but still believe your bill is
wrong, you must write to us within 10 days telling us that
you still refuse to pay. If you do so, we cannot report you as
delinquent without also reporting that you are questioning
your bill. We must tell you the name of anyone to whom
we reported you as delinquent, and we must let those
organizations know when the matter has been settled between
us.
If we do not follow all of the rules above, you do not have to
pay the first $50.00 of the amount in question, even if your bill
is correct.

Your Rights If You Are Dissatisfied with Your Credit
Card Purchases
If you are dissatisfied with the goods or services that you have
purchased with your credit card and you have tried in good
faith to correct the problem with the merchant, you may
have the right not to pay the remaining amount due on the
purchase.
To use this right, all of the following must be true:
• The purchase must have been made in your home state or
within 100 miles of your current mailing address, and the
purchase price must have been more than $50.00 (Note:
Neither of these are necessary if your purchase was based on
an advertisement we mailed to you, or if we own the company
that sold you the goods or services.)
• You must have used your credit card for the purchase.
Purchases made with cash advances from an ATM or with a
check that accesses your credit card account do not qualify.
• You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied
with the purchase, contact us in writing or electronically at:
MSU Federal Credit Union
C/O Visa Department
PO Box 1208
East Lansing, MI 48826-1208
msufcu.org
While we investigate, the same rules apply to the disputed
amount as discussed above. After we finish our investigation,
we will tell you our decision. At that point, if we think you
owe an amount and you do not pay, we may report you as
delinquent.

MSUFCU Visa Signature Credit Card Disclosure
Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

14.9% to 17.9%

APRs for Balance
Transfers

14.9% to 17.9%
based on your creditworthiness

APRs for Cash Advances

14.9% to 17.9%
based on your creditworthiness

Penalty APR and
When It Applies

17.9%
The Penalty APR is applied if your account becomes delinquent 60 days.
How Long Will the Penalty APR Apply? The Penalty Annual Percentage Rate
will apply until you make six (6) consecutive minimum on-time payments and
the line of credit is current.

How to Avoid Paying
Interest on Purchases

based on your creditworthiness

Visa Signature Credit Card Agreement and
Truth-in-Lending Disclosure Statement
In this agreement (called the “Agreement”), the words “you” and
“your” mean or refer to each and all persons who have applied for
the Card or Cards. “Card” means the Visa Signature Credit Card or
Cards, any duplicates and renewals, or substitutions we may issue.
“Account” means your Visa Signature Credit Card line-of-credit loan
account with us. “We,” “us,” and “ours” means or refers to Michigan
State University Federal Credit Union. This Agreement is also a
Truth-in-Lending Disclosure Statement.
1. Responsibility: By activating and using your Visa Signature
Credit Card line-of-credit loan, you agree to be bound by the terms
and conditions of this agreement. You promise to repay all debts
and the INTEREST CHARGE arising from any authorized use of the
Card. You agree not to let someone else use the Card. If you do, you
are agreeing with us that you authorize all use that person makes
of the Card. Therefore, you will be liable for all such use of the Card.
Once you notify us, we will take prompt steps to try to prevent
any further Card use by that person. If your application is signed
by two people, the Account is joint; that is, each of you, separately
and jointly with each other, are liable for all debts on the Account
and INTEREST CHARGE. Your obligation to pay all such debts and
INTEREST CHARGE continues even though an agreement, divorce
decree, or other court judgment to which we are not a party may
direct that only one of you, or some person other than you (or
both of you), must pay such debts and INTEREST CHARGE.

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.

For Credit Card Tips from To learn more about factors to consider when applying for or using a
the Consumer Financial credit card, visit the website of the Consumer Financial Protection Bureau
Protection Bureau
at http://www.consumerfinance.gov/learnmore
Fees
Annual Fee

$0 for the first year; $99 thereafter

Penalty Fees
• Late Payment

$25 if the minimum payment due is $25 or more;
$15 if the minimum payment due is $15 to $24.99; or
$0 if the minimum payment due is less than $15.

Other Fees
• Returned Convenience $25
Check
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided
in your account agreement.
How We Will Calculate Your Balance: We use a method called “average daily balance (including new transactions).”
Loss of Introductory APR: We may end your introductory APR and apply the Penalty APR if your account
becomes delinquent 60 days.

The information about the costs of the card described in this
disclosure is accurate as of 11/1/19. This information may have
changed after that date. To find out what may have changed, write
to us at PO Box 1208, East Lansing, MI 48826-1208 or visit
msufcu.org.

Federally insured
by NCUA

10%

11/19

2. Credit Line: We have established a self-replenishing line of
credit for you and have notified you of the amount (“credit limit”).
That notification is incorporated as part of this Agreement. You
agree not to let your Account balance exceed such amount. Each
payment you make on the Account will replenish your credit limit
by the part of that payment which is applied to principal. You
agree that we may delay replenishing your credit limit until we
confirm the payment has cleared. If you have not used your Visa
Signature Credit Card line-of-credit loan for 18 months, we reserve
the right to not reissue your Visa Signature Credit Card(s) as of the
expiration date and to cancel your line of credit. If you have not
activated your Visa Signature Credit Card(s), we reserve the right to
not reissue your Visa Signature Credit Card(s) as of the expiration
date. We may reduce your credit limit from time to time, change
the rate in accordance with the conditions of the cardholder
information section of the Agreement, or may, with good cause,
revoke your Card and terminate this Agreement. In any event, we
will give you written or electronic notice of such action. “Good
cause” includes your failure to satisfy the terms of this Agreement
or our adverse re-evaluation of your creditworthiness. However,
you may terminate this Agreement, at any time and for any reason,
by giving us written notice. Nevertheless, termination by you or

by us does not affect your obligation to pay all debts and INTEREST
CHARGES arising from authorized use of your Card. The Card remains
our property and you must recover and surrender to us each Card
upon our request or upon termination of this Agreement.
3. Using the Card: As soon as received, each Card must be signed (in
the space provided on the back) by the person whose name appears
on the front of the Card. That signature must be in the same form as
appears on the front of the Card. To make a purchase or cash advance,
there are several alternative procedures to be followed. One is for you
to present the Card to a participating Visa plan merchant or financial
institution, or to us, and sign the sales draft or cash advance that will
be imprinted with your Card. Another is to complete the transaction
by using your personal identification number (PIN) in conjunction
with the Card, in accordance with the instructions given to you by an
automated teller machine (ATM), or other type of electronic terminal
that provides access to the Visa system, by a participating Visa plan
merchant, by us, or by another financial institution. Cash advances can
also be made by phone or mail request. Please note that we are not
responsible if a particular Visa plan merchant or financial institution
refuses to honor your Card. You will receive a copy of the draft, which
you should retain to verify your monthly statement. You agree not to
make, or permit to be made, any illegal transactions on your Account
through the use of a Card, check, or in any other manner. We may
deny authorization for any internet gambling transaction.
4. Interest Charges: In order to avoid an INTEREST CHARGE on
purchases made since your last statement, you must pay the “Total
New Balance” shown on or before the “Statement Due Date” shown
on that statement (which will not be less than 25 days from the
“Statement Date”). Otherwise, the INTEREST CHARGE on purchases
is calculated on the next statement period on previously billed but
unpaid purchases and on new purchases from the date they are
posted to your account. Balance transfers and cash advances are
always subject to an INTEREST CHARGE from the date they are posted
to your account. The INTEREST CHARGE (interest) on purchases and
cash advances is calculated at the Daily Periodic Rate. The ANNUAL
PERCENTAGE RATE (APR) on purchases, balance transfers and cash
advances is between 14.9% (0.04082% Daily Periodic Rate) and 17.9%
(0.04904% Daily Periodic Rate). The APR you receive is determined
based on your creditworthiness, and we have notified you of your
initial APR in the Visa Account-Opening Credit Disclosures. We reserve
the right ti adjust or increase your APR, as allowed by applicable
law. Separate INTEREST CHARGES for purchases, balance transfers,
and cash advances are determined by multiplying the Daily Periodic
Rate by the separate average daily balances for purchases, balance
transfers, and cash advances by the number of days in the statement
period. Each average daily balance is determined by taking the
beginning balance (of purchases, balance transfers, or cash advances)
in your account each day, adding any new purchases, balance
transfers, or cash advances (whichever is applicable), and subtracting
any payments or credits. The results are the daily balances. All the daily
balances for the statement period are added and the total is divided
by the number of days in the statement period to arrive at the average
daily balances for the period.
5. Monthly Payment: Each month, you must pay at least the
minimum payment shown on your statement by the Statement Due
Date. You may pay more frequently, pay more than the minimum

payment, or pay the Total New Balance in full. If you make extra
payments or larger payments, you are still required to make at least
the minimum payment each month your account has a balance. The
minimum payment is 2% of your Total New Balance but not less than
$15.00, plus the amount of any prior minimum payments that you have
not paid. In addition, any time your Total New Balance exceeds your
credit limit, you must immediately pay the excess upon demand. If your
account becomes 60 days delinquent, the penalty ANNUAL PERCENTAGE
RATE of 17.9% (0.04904% Daily Periodic Rate) will apply. Once imposed,
the penalty Annual Percentage Rate will apply until you make 6
consecutive minimum on-time payments and the line of credit is current.
MINIMUM PAYMENT WARNING: Making only the minimum payment will
increase the amount of interest you pay and the time it takes to repay
your balance. You may call us at 800-678-4968 to receive information
about accessing credit counseling and debt management services.
6. Other Charges:
Annual Fee: An annual fee of $99 is waived the first year and charged
each subsequent year on the anniversary date.
Late Payment Fee: You may be assessed, and agree to pay, a late
payment fee for any payment received 7 or more days past the payment
due date as indicated on your statement. The late payment fee is $25.00
if the minimum payment due is $25.00 or more; $15.00 if the minimum
payment due is $15.00 to $24.99; or $0 if the minimum payment due is
less than $15.00.
Returned Convenience Check: If we do not pay a draft written against
your account, we will assess, and you agree to pay, a charge of $25.00 for
each returned draft.
7. Currency Conversion: When you use your Visa Signature Credit Card
at a merchant that settles in, or at an ATM that dispenses, currency
other than U.S. dollars, the charge will be converted into the U.S.
dollar amount. The currency conversion rate used to determine the
transaction amount in U.S. dollars is either a wholesale market rate or
the government-mandated rate in effect the day before the processing
date. The conversion rate in effect on the processing date may differ
from the rate in effect on the transaction date or posting date.
8. Credits: If a merchant that honors your Card gives you credit for
returns or adjustments, it will do so by posting a credit to your Account.
You should keep your copy of the credit slip to verify your monthly
statement. If your credits and payments exceed what you owe us on the
Account, we will credit such excess to your savings account or we will
refund it upon request.
9. Security Interest:
Shares as Security: To secure performances of your obligations
under this Agreement, you hereby grant to MSUFCU a security
of interest in funds you may have on deposit with MSUFCU from
time to time and in any other money MSUFCU may owe you. You
understand and intend that by reason of such security interest
here granted, MSUFCU may satisfy your indebtedness under this
Agreement by charging your deposit account(s) maintained with
MSUFCU if you default in payment under this Agreement, without
further notice to you. If a specific dollar amount has been pledged,
MSUFCU will freeze shares in that account to the extent of the
specified pledge. Otherwise, your shares may be withdrawn unless
you are in default. This security interest does not apply to any

Individual Retirement Account or any other account that would
lose special tax treatment under state or federal law if given as
security.
Cross Collateral: Any collateral securing other loans with the Credit
Union, except loans secured by real property used as your principal
dwelling or property used for personal, family or household purposes,
will also secure advances made under this agreement.
10. Loss or Theft of Card: You agree to notify us immediately upon
discovering your Card has been lost or stolen.
Card Expiration
Your Card is valid until the expiration date on the front of the Card or
until the Card has been inactive for 18 consecutive months and has a
$0 balance, at which time the Card will automatically expire. If there
is no activity after 24 consecutive months, your line of credit will be
canceled. After the Card has expired, it is no longer valid, you will
not be able to use the Card, and all transactions will be declined. If
your Card is active within the prior 12 months, you will automatically
be issued a new Card 7-10 business days prior to its expiration date,
unless the Card is otherwise terminated. You agree to notify us of any
change in address for Card reissuance, disclosure and other contact
purposes.
Consent to Contact
You agree we and our agents may contact you by phone or wireless
device at any phone number associated with your account, including
wireless numbers (i.e. cell phone numbers), in order to service your
account, provide you fraudulent activity alerts, or collect any amounts
owed to us, excluding any contacts for telemarketing purposes as
required by law. You further agree methods of contact may include,
but are not limited to, the use of text messages, prerecorded or
artificial voice messages, and/or use of an automatic dialing service.
Calls and messages may incur access fees from your cellular service
provider. You understand that you are not required to provide
consent as a condition to receiving products or services and you
may revoke your consent or change the phone number provided by
contacting us at 517-333-2424 or 800-678-4968, msufcu.org, or by
visiting any MSUFCU branch.
Visa Account Updater (VAU)
VAU is an account updating service in which your Card is
automatically enrolled. When your Card(s) expires, or is lost or
stolen, and a new card is issued, the service may update relevant
Card data (Card numbers, CVV and expiration dates) to appropriate
merchants who participate in an effort to facilitate uninterrupted
processing of your recurring charges. This service provides updates
to our Visa database only. The database is accessed only by those
qualified merchants seeking your account information after you
have requested they process a recurring payment or payments. You
understand that neither Visa nor MSUFCU can guarantee that your
account updates will be communicated to merchants prior to your
next statement date. This service is provided as a free benefit to you.
If, at any time, you wish to opt out of the VAU service, or if you have
any questions, please contact us.
11. Default: The minimum payment shown on the statement is
due by the date shown on the statement. You will be in default
if you fail to make the minimum payment within 7 days after the

Statement Due Date. You will also be in default if you breach any
other conditions of the Agreement; if we determine that your
creditworthiness (which includes your ability to repay us) has
become unsatisfactory due to change in employment, increase
in your other obligations, or because of any other reason; or in
the event of your death. In the event of any default, the entire
balance on the Account becomes due and payable immediately.
You also agree that, in case of default, you will pay all usual and
customary costs of collection, including reasonable attorney’s fees,
as permitted by law.
12. Credit Information: You authorize us to investigate your credit
standing when opening, renewing, or reviewing your Account, and
you authorize us to disclose information regarding our experience
with you under this Agreement to credit bureaus and other
creditors. Late payments, missed payment, or other defaults on
your Account may be reflected in your credit report.
13. Effect of Agreement: This Agreement contains our complete
contract relating to the Account and applies to every transaction
relating to the Account even though a sales, balance transfer, or
cash advance draft you sign or a credit slip may contain different
terms.
14. Amendment of Agreement: From time to time, we may amend
this Agreement by giving you notice of the amendment at least
45 days before it goes into effect, unless a shorter notice period is
permitted by law. The notice will be sent to your last known address
appearing in our records and will state the date upon which the
amendment will become effective. You agree we may provide any
such notices to you electronically if you have agreed to receive your
statement electronically. Except where prohibited by law, all such
changes will apply to new transactions and to amounts you already
owe, unless you provide notice of your election to terminate the
account and surrender your Card(s) on or before the effective date
of the changes. Then, you will be entitled to repay your balance in
accordance with the terms and conditions in effect at that time.
We may also offer you a repayment method that includes: an
amortization period of not less than 5 years or a required minimum
periodic payment that includes a percentage of the outstanding
balance that is not more than twice the percentage required before
the effective date of the amendment.
15. Cash Advance by Machine: If automated teller machines or
other electronic devices are available while this Agreement remains
in effect that make it possible for you to obtain a cash advance by
use of your Card in such a machine, we will furnish you with a secret
personal identification number. Your use of that number, together
with your Card, in getting a cash advance from such a machine
is agreed to constitute your signature for purposes of such cash
advance. Minimum amount of cash advance is $50.00.
16. Record Keeping: You have agreed that we may keep the
application which bears your signature so that we can comply with
federal and/or state law relating to loan documents we are required
to keep in our files.
17. Liability for Unauthorized Use: You may be liable for the
unauthorized use of your credit card. You will not be liable for
unauthorized use that occurs after you notify MSUFCU, orally or in

writing, of the loss, theft, or possible unauthorized use. You will
have no liability for any unauthorized use of your Card, unless
you were grossly negligent or fraudulent in handling the Card.

YOUR BILLING RIGHTS: Keep This Document for
Future Use
This notice informs you about your rights and
responsibilities under the Fair Credit Billing Act.

What to Do if You Find a Mistake on Your
Statement
If you think there is an error on your statement, write to us at:
MSU Federal Credit Union
C/O Visa Department
PO Box 1208
East Lansing, MI 48826-1208
You may also contact us online at msufcu.org
In your letter, give us the following information:
• Account information: Your name and account number
• Dollar amount: The dollar amount of the suspected error
• Description of problem: If you think there is an error on your
bill, describe what you believe is wrong and why you believe it
is a mistake.
You must contact us:
• Within 60 days of the error appearing on your statement
• At least three business days before an automated payment is
scheduled if you want to stop payment on the amount you
think is wrong
You must notify us of any potential errors in writing by mail or
electronically. If you call us, we are not required to investigate
any potential errors and you may be required to pay the amount
in question.

What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
• Within 30 days of receiving your letter, we must tell you that
we received your letter. We will also tell you if we have already
corrected the error.
• Within 90 days of receiving your letter, we must either correct
the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you
as delinquent on that amount.
• The charge in question may remain on your statement, and we
may continue to charge you interest on that amount.
• You do not have to pay the amount in question, but you are
responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.

